OFFICE OF THE
SECRETARY
Quarterly Conference
Reporting Processes
Need Improvement




FINAL REPORT NO. OIG 13-001-I
OCTOBER 17, 2012


U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation



FOR PUBLIC RELEASE
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   Office of Inspector General
                                                   Washington , D.C. 20230




 October 17, 20 12

 MEMORANDUM FOR:               Scott B. Quehl
                               Chief Financial Officer and Assistant Secretary for Administration
                                   e; ~~----
 FROM:                         Andrew Katsaros
                               Assistant Inspector General for Audit

SUBJECT:                       Quarterly Conference Reporting Processes Need Improvement
                               Final Report Number OIG-13-00 1-1

Attached is the final report of our evaluation of the Department of Commerce's controls over
its quarterly conference reporting. Our objective was to determine whether the Department of
Commerce has established controls and provided guidance to bureaus for reporting quarterly
conference data.

Our review found that, for this first conference report, the Department established initial
operational processes and reporting guidance. However, these processes are still in
development and need to become clearly established before the information in its periodic
reports is fully reliable. We noted that the bureaus over- and under-reported costs by $37,000
and $70,000, respectively, and reported $280,000 in unsupported costs. The Department also
accepted bureaus' conference spending data with only a limited validation of the reported data
and planning procedures, which resulted in incorrect reporting for select conferences. The
Department needs to address these concerns to ensure the reliability of conference data in
future submissions; our report offers recommendations for addressing these concerns.

In accordance with Department Administrative Order 2 13-5, please provide us with an action
plan within 60 calendar days of the date of this memorandum.

We appreciate the assistance and courtesies extended to us by your staff during the review. If
you have any questions about this report, please contact me at (202) 482-7859 or Patty
McBarnette, Director, Financial Statement Audits, at (202) 482-3391.

cc: 	    Lisa Casias, Deputy Chief Financial Officer and Director for Financial Management
         MaryAnn Mausser, Audit Liaison
         Mary Pleffner, Director for Administrative Services
        Marilyn Stoll, Associate Director, Office of Commerce Services
        Gordon Alston, Deputy Director for Financial Management
        Julie Tao, Director, Office of Internal Controls
                                           Report In Brief                             O C T OB E R 1 7 , 2 0 1 2




Background                              OFFICE OF THE SECRETARY
In fiscal year (FY) 2012, the De-
partment of Commerce received           Quarterly Conference Reporting Processes
an appropriations provision in the      Need Improvement
Consolidated and Further Continu-
ing Appropriations Act, 2012 (P.L.
                                        OIG-13-001-I
112-55) requiring it to submit to
the Office of Inspector General
(OIG) quarterly reports on the
costs and contracting procedures        WHAT WE FOUND
related to FY 2012 Departmental
conferences for which the govern-       Our review found that, for this first conference report, the Department
ment’s costs exceeded $20,000.          established initial operational processes and reporting guidance. However, these
                                        processes are still in development and need to become clearly established before
In the Department’s first confer-       the information in its periodic reports is fully reliable. We noted that:
ence spending report to OIG, five
bureaus—including the Census             	   The bureaus over- and under-reported costs by $37,000 and $70,000, 

Bureau, International Trade Ad-                respectively, and reported $280,000 in unsupported costs. 

ministration, National Oceanic and
Atmospheric Administration, Na-          	   The Department accepted bureaus’ conference spending data with only a
tional Telecommunications and                  limited validation of the reported data and planning procedures, which
Information Administration, and                resulted in incorrect reporting for select conferences.
U.S. Patent and Trademark Office
USPTO—reported 24 confer-               The Department needs to address these concerns to ensure the reliability of
ences, totaling over $1.7 million, in   conference data in future submissions.
the first quarter of FY 2012.

Why We Did This Review                  WHAT WE RECOMMEND
In March 2012, the Department           We recommend that the Director of the Office of Administrative Services:
submitted its first quarter con-
ference report to OIG, along             1. 	 Strengthen operating policy to ensure bureaus accurately report actual
with a summary of its report                  conference spending data, identify estimated costs, and provide updates
validation process and an expla-              to these estimates when actual costs become available.
nation of ongoing improvements           2. 	 Require bureaus to maintain supporting documentation for costs incurred,
to conference reporting guid-
                                              planning considerations, and decision justifications.
ance. In April, we initiated an
evaluation of the conference re-         3. 	 Acquire assurances from bureaus that all required conferences are 

porting process; our objective                included in the quarterly report. 

was to determine whether the
Department of Commerce has               4. 	 Provide training to ensure clear understanding of developed policies, 

established controls and provided             documentation requirements, and the conference spending data 

guidance to bureaus for reporting             report process. 

quarterly conference data.
                                         5. 	 Develop a process to examine questionable costs and document results.
We limited the scope of our
evaluation to processes for report-      6. 	 Conduct and document tests of the reasonableness of second quarter

ing the Department’s conference               FY 2012 conference expenditure data provided by the bureaus. 

data for the first quarter FY
2012—October 1, 2011, through            7. 	 Review bureau procedures for planning conferences and selecting facilities
December 31, 2011.                            to ensure compliance with Departmental policies and procedures.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................3
 
   I.      The Conference Data Report Included Inaccurate Information ................................................3
 
           A.          Bureaus Over- and Under-Reported Some Conference Costs ....................................3
 
           B.          Bureaus Often Reported Estimated Conference Costs Instead of Actual Costs .....4
 
   II.  The Department Did Not Complete a Thorough Review of the Conference Data ............4
 
           A.          The Department’s Validation Methods Allowed for Estimated Costs ........................5
 
           B.          The Department Reviewed Limited Conference Documentation ...............................5
 
Summary of Agency and OIG Comments...................................................................................................7
 
Appendix A: Objectives, Scope, and Methodology ...................................................................................8
 
Appendix B: Potential Monetary Benefits ...................................................................................................9
 
Appendix C: Agency Response................................................................................................................... 10
 




                                                                                                                        COVER: Detail of fisheries pediment,
                                                                                                               U.S. Department of Commerce headquarters, 

                                                                                                                       by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG 13-001-I
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL



Introduction
In fiscal year (FY) 2012, the Department of Commerce received an appropriations provision1
requiring it to submit to the Office of Inspector General (OIG) quarterly reports on the costs
and contracting procedures related to FY 2012 Departmental conferences for which the
government’s costs exceeded $20,000.

The Department’s Office of Financial Management (OFM) was the lead office responsible for
gathering the bureaus’ data and submitting the first quarterly report. Accordingly, OFM
developed and issued standardized conference policies and procedures to ensure bureaus’
compliance with the Federal Travel Regulation (FTR), 41 Code of Federal Regulations (CFR)
parts 300–304, which governs federal conferences and meetings. FTR requires agencies to (a)
plan conferences using a cost-effective approach, (b) document planning decisions and
justifications, and (c) properly account for costs.2 In October 2011, OFM requested that
bureaus certify their adherence to required conference policies and procedures, including using
proper controls to mitigate the risks of inappropriate conference spending.

In January 2012, OFM asked all bureaus for conference data—including, but not limited to:
       	 Detailed statements of bureaus’ conference-related costs, including food and beverages,
          audio–visual services, and travel; and
       	 Descriptions of the contracting procedures related to the conferences.
In the Department’s first conference spending report to OIG, five bureaus—including the
Census Bureau, International Trade Administration (ITA), National Oceanic and Atmospheric
Administration (NOAA), National Telecommunications and Information Administration
(NTIA), and U.S. Patent and Trademark Office (USPTO)—reported 24 conferences, totaling
over $1.7 million, in the first quarter of FY 2012. Though not specifically required by the
appropriations provision, OFM sampled 13 of the 24 reported conferences for a high-level
validation, which amounted to a reasonableness review of the reported conference spending
data prior to providing the conference report to OIG. In March 2012, the Department
submitted its first quarter conference report to OIG, along with a summary of its report
validation process and an explanation of ongoing improvements to conference reporting
guidance.

In April 2012, we initiated an evaluation of the conference reporting process; our objective was
to determine whether the Department of Commerce has established controls and provided
guidance to bureaus for reporting quarterly conference data. Looking only at processes for
reporting first quarter FY 2012 conference data, we (a) assessed the Department’s policies and
procedures for the oversight of conference procurement and management; (b) examined the
Department’s requirements—and the communication of those requirements to bureaus—for
reporting quarterly conference data; and (c) evaluated bureaus’ reporting and the Department’s
report validation process. See appendix A for details regarding our objectives, scope, and
methodology.
                                                            
1
     The Consolidated and Further Continuing Appropriations Act, 2012 (P.L. 112-55). 
2
     41 CFR pt. 301-74. 


FINAL REPORT NO. OIG 13-001-I                                                                              1
  U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL


Our review found that, for this first conference report, the Department established initial
operational processes and reporting guidance. However, these processes are still in
development and need to become clearly established before the information in its periodic
reports is fully reliable. We noted that the bureaus over- and under-reported costs by $37,000
and $70,000, respectively, and reported $280,000 in unsupported costs. The Department also
accepted bureaus’ conference spending data with only a limited validation of the reported data
and planning procedures, which resulted in incorrect reporting for select conferences. The
Department needs to address these concerns to ensure the reliability of conference data in
future submissions.

OFM has since submitted the second quarter conference report to OIG, on June 1, 2012, after
which the Department has made significant changes to the reporting process. The Department
then transferred oversight of the quarterly conference reporting process from OFM to the
Office of Administrative Services (OAS) for the third quarter. Additionally, the Department is
now implementing a number of process improvements, including updating relevant conference
policies and procedures and requiring specified levels of management review and pre-approval.
The Department has also updated its conference planning checklist, clarified relevant terms
including “conference expense,” and placed new emphasis on reporting actual conference costs.
Department leadership appears committed to strengthening the processes and controls
surrounding bureau conference activities, as well as to implementing the requirements of OMB
Memorandum M-12-12 related to promoting efficient spending on travel, conferences, real
property, and fleet management.

 




FINAL REPORT NO. OIG 13-001-I                                                                    2
  U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL



Findings and Recommendations
  I.     The Conference Data Report Included Inaccurate Information

    The bureaus’ first quarter conference spending data incorrectly reported certain costs. At
    the time OFM collected the data, the Department had not fully developed policies or
    processes associated with its quarterly conference spending submissions. The
    documentation supporting the reported costs showed that bureaus both over- and under-
    reported costs in some instances, while providing estimates in lieu of actual costs in others.
    As a result, the Departmental report contained a variety of inaccurate conference spending
    information.

    A. Bureaus Over- and Under-Reported Some Conference Costs

         Two of the five bureaus reporting conferences in the first quarter over-reported some
         conference costs by a combined total of approximately $37,000 and under-reported
         other costs by more than $70,000, as illustrated in table 1 (below).

           Table 1. Summary of Over- and Under-Reported Conference Costs
              with Documented Support in FY 2012 First Quarter Report
                                                                 Amount
             Cost Description              Amount Over-
                                                                  Under-         Net
                                            Reported
                                                                 Reported
             Audio–Visual                         $1,500               $0        $1,500

             Food and Beverage                        $7               $0            $7

             Lodging                              $1,615         -$14,685      -$13,070
             Meals and Incidental
                                                    $460          -$8,982       -$8,522
             Expenses (M&IE)
             Other Costs                         $20,456          -$5,670       $14,786

             Conference Planner                       $0          -$3,655       -$3,655

             Transportation                       $8,459         -$36,221      -$27,762

             Travel                               $4,756          -$1,560        $3,196

                                TOTAL           $37,253         -$70,773       -$33,520

            Source: Bureau documentation supporting conference costs

         The remaining three bureaus reporting conferences in the first quarter did not produce
         reviewable travel voucher or vendor invoice support for more than $280,000 of the
         reported conference costs. Because these unsupported costs were primarily for M&IE,
         transportation, and lodging costs—which were the costs we most frequently identified


FINAL REPORT NO. OIG 13-001-I                                                                        3
  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


         as misreported—we believe there is potential for additional reporting discrepancies in
         first quarter conference spending data.

    B. Bureaus Often Reported Estimated Conference Costs Instead of Actual Costs

         We also noted that bureaus more often reported estimated costs, as developed during
         conference planning, than the actual costs requested by OFM. Our review of all 24
         conferences showed that, of the more than $1.7 million in reported conference costs,
         bureaus reported only $700,000 based on actual costs, with $772,000 (44 percent)
         based on estimated amounts (see figure 1 below). These estimated costs, when
         combined with unsupported costs, account for more than 60 percent of reported
         conference spending data for the first quarter of FY 2012.

            Figure 1. Costs Included in the First Quarterly Conference Report



                                             Unsupported
                                                costs
                                              $282,637        Actual costs
                                                               $698,782


                                           Estimated costsa
                                               $772,282




         Source: OFM’s first quarter conference report validation files and bureau documentation
         a
           Estimated costs include some budgeted conference expenditures for which partial support was
         available but insufficient to fully support an individual line item of the spending report.

         Some bureaus stated that they provided estimated costs rather than obtaining and
         compiling actual costs because not all actual expenses are available immediately or at the
         close of a quarter. One bureau stated that it might not receive invoices for several
         months or, in rare instances, years following the conclusion of a conference. This
         occurred in four instances when invoices were not available at the time the spending
         report was prepared. However, we identified many more instances where actual cost
         data was available at the bureaus but not submitted.

 II.	    The Department Did Not Complete a Thorough Review of the Conference
         Data

    OFM’s validation of first quarter conference spending data was a review for reasonableness
    and relied on the estimated costs reported by the bureaus in lieu of the required actual
    costs. OFM reviewed only a limited amount of documentation supporting the bureau
    conference costs.


FINAL REPORT NO. OIG 13-001-I                                                                            4
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


    A. The Department’s Validation Methods Allowed for Estimated Costs

         OFM’s approach to validating information in the first quarter conference spending
         report included selecting samples, requesting and reviewing supporting documentation,
         and validating the reported conference spending data. After we discovered reporting
         discrepancies, OFM officials informed us that it did not plan to fully confirm each cost or
         perform a complete review of conference spending data when it prepared for its
         validation. This level of oversight, it asserted, would have been prohibitive due to limited
         time and resources. Instead, OFM performed reasonableness tests and accepted costs
         that appeared appropriate. Department officials also told us that, because there is no
         process in place to ensure that bureaus reported all conferences held during the period
         or that they reported on all required conference spending information, OFM accepted
         the information provided by the bureaus as complete.

         The Department justified using budgeted or estimated amounts for the conference
         report for two reasons. First, according to Department officials, bureaus do not receive
         conference invoices for international procurements for up to a year following the
         conclusion of a conference. Second, bureau estimates of individually reported costs
         were generally determined to be accurate within 5 percent of actual costs. However,
         we did not find sufficient support for these determinations as they related to first
         quarter conference spending. For instance, the reporting of estimated costs was not
         limited to the nine reported international conferences; bureaus provided estimates for
         21 of the 24 conferences. Further, our review of bureau support for conference
         spending showed that estimated costs were often over- or under-stated compared to
         the confirmed actual costs. For example, one bureau reported estimated costs for
         interpreters at one particular conference as $66,000 while we confirmed the actual
         costs to be $51,890.

    B. The Department Reviewed Limited Conference Documentation

         P.L. 112-55 requires the Department to provide a description of the conference subject,
         the number of conference attendees, a detailed statement of conference costs, and a
         description of the conference planning procedures. Our review determined that, for 69
         percent of the conferences, OFM did not confirm the number and types of participants,
         federal or non-federal, attending the conferences. Further, for 75 percent of the
         conferences, the OFM did not obtain documentation supporting the bureaus’ reported
         attendees’ travel and M&IE costs. This prompted particular concern when our review
         noted questionable travel cost data provided by the bureaus. While the bureaus
         produced some documentation showing that these costs were approved—including
         premium class travel for medical reasons—and OFM officials acknowledged inquiring
         about these costs, we believe OFM should maintain more substantial bureau response
         and approval documentation to more fully support review efforts. The lack of
         supporting travel documentation also prevented OFM from confirming whether
         attendees properly discounted costs from their M&IE when conferences included meals,




FINAL REPORT NO. OIG 13-001-I                                                                       5
  U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL


              as required by FTR.3 Consequently, the Department did not ensure that bureaus
              properly accounted for their use of government funds.

              OFM’s review of first quarter conference spending also did not include a review of the
              bureaus’ conference planning or procurement processes. Although the report required
              a description of conference planning procedures, our review noted that bureaus
              provided limited conference planning information. We found that bureaus did not
              disclose cost comparisons for four of the six conferences with contracted services. In
              addition, we found that bureaus did not include justifications for the use of nonfederal
              facilities. One bureau reported holding a conference solely at a federal facility, while its
              reported costs included a dinner at a nonfederal facility. Another bureau’s conference
              planning documents included costs that required specific justification and approval.
              While these costs were approved, a separate justification was neither documented on
              an approval form nor identified as a necessary part of an official entertainment or
              representation program. These issues highlight the need for the Department to enhance
              its current review process by analyzing bureau conference planning and procurement
              descriptions, collecting more information about bureau decisions, and obtaining
              supporting documentation as needed, especially as it deploys the new process. As the
              Department establishes its process, the Department can reassess its approach to
              reviews of bureau documentation.

Recommendations

We recommend that the Director of OAS:

       1.	 Strengthen operating policy to ensure bureaus accurately report actual conference
           spending data, identify estimated costs, and provide updates to these estimates when
           actual costs become available.
       2.	 Require bureaus to maintain supporting documentation for costs incurred, planning
           considerations, and decision justifications.
       3.	 Acquire assurances from bureaus that all required conferences are included in the
           quarterly report.
       4.	 Provide training to ensure clear understanding of developed policies, documentation
           requirements, and the conference spending data report process.
       5.	 Develop a process to examine questionable costs and document results.
       6.	 Conduct and document tests of the reasonableness of second quarter FY 2012 

           conference expenditure data provided by the bureaus. 

       7.	 Review bureau procedures for planning conferences and selecting facilities to ensure
           compliance with Departmental policies and procedures.

 

                                                            
3
     41 CFR § 301-74.21. 


FINAL REPORT NO. OIG 13-001-I                                                                            6
  U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL



Summary of Agency and OIG Comments
In responding to our draft report, the Department concurred with all of our recommendations
and outlined its perspective on the report’s findings and actions already taken to strengthen
controls over conference spending. The Department stated that it welcomes all opportunities
for improving its policies, processes, and procedures to maintain strong internal controls.
Overall, the Department believes that the first conference report complied with the
Consolidated and Further Continuing Appropriations Act, 2012.

We appreciate all the efforts made by the Department to strengthen the oversight of
conference and reporting requirements and expect the prompt publication of the updated
comprehensive conference policy. As the Department continues to improve its policies,
process, and procedures, we stress the importance of the bureaus reporting supported, actual
conferencing costs and taking measures to ensure the reliability of data reported to OIG.



 




FINAL REPORT NO. OIG 13-001-I                                                                   7
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL



Appendix A: Objectives, Scope, and
Methodology
The objective of this evaluation was to determine whether the Department has established
controls and provided guidance to bureaus for reporting quarterly conference data. The scope
was limited to the processes for reporting the Department’s conference data for the first
quarter fiscal year (FY) 2012—October 1, 2011, through December 31, 2011.

For this review, we:

    	 Reviewed the Department’s policies and procedures for the oversight of conference
       procurement and management to determine whether the Department has established
       satisfactory policies and procedures to monitor and manage conferences.
    	 Examined the Department’s requirements for reporting quarterly conference spending
       data, as well as the communication of those procedures to bureaus, to determine
       whether the Department established sufficient guidance on reporting conference
       spending data and clearly communicated those requirements to bureaus.
    	 Evaluated the documentation supporting costs reported in the Department’s conference
       spending data for the first quarter of FY 2012 and reviewed documentation supporting
       the Department’s report validation process.
    	 Interviewed officials and obtained documentation from bureaus providing reporting
       information: the Office of Financial Management, Census Bureau, International Trade
       Administration, National Oceanic and Atmospheric Administration, National
       Telecommunications and Information Administration, and U.S. Patent and Trademark
       Office.

We conducted this review from April through July 2012, under the authorities of the Inspector
General Act of 1978, as amended, and Departmental Organization Order 10-13, dated August 31,
2006, as amended. The review was conducted in accordance with the Quality Standards for Inspection
and Evaluation (January 2011) issued by the Council of the Inspectors General on Integrity and
Efficiency.




FINAL REPORT NO. OIG 13-001-I                                                                    8
  U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL



Appendix B: Potential Monetary Benefits 

                                  Potential Monetary Benefits

                                     Questioned Costs      Funds Put to Better Use


              Unsupported costs          $ 282,637                   $0




 




FINAL REPORT NO. OIG 13-001-I                                                              9
  U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL




Appendix C: Agency Response 

                                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                                       Chief Financial Officer and
                                                                        Assistant Secreta!)' for Administration
                                                                       Washington. D.C. 20230




        MEMORANDUM FOR                Todd J. Zinser
                                      Inspector General    ~

        FROM:                         Scott QuchrS~
                                      Chief Financial Ofticer and
                                       Assistant Secretary for Administration

        SUBJECT:                      Response to the August 3 1, 2012, OIG Draft Report on Quarterly
                                      Conierence Reponing

       We appreciate the opportunity to review and comment on the draft report on quarterly conference
       reporting. The Dcpa1tment is committed to being good stewards of taxpayer dollars, including in
       our implementation of conferences that help further Commerce's mission to help businesses create
       American jobs and strengthen the economy. We welcome all opportunities for improving our
       policies. processes and procedures to maintain strong internal controls and repo1ting structures and
       agree with the recommendations provided in the report. We were pleased that your review did not
       identify any findings related to the misuse ofGovenm1ent funds. We would like to take this
       opportunity to otler our perspectives regarding the scope and outcomes in the report and also
       inform the Of1ice of Inspector General (O JG) oft he many actions we have already taken to
       strengthen our controls over conference spending.

        We believe the Department's first quarter conference report submitted to the 0 10 was in
        compliance with the requirements oft he Consolidated and Further Continuing Appropriations Act
        of20 12. Although the Act does not make a distinction between reporting actua l versus estimated
        costs, we wi ll explore the OIG concerns on the type of cost est imates used in the rcpo•t along with
        the impact of waiting for actual costs before we report on conferences. We appreciate the
        suggestions n·om the OIG on areas meriting the application of a full audit of data, and will use these
        recommendations to build upon the reasonableness tests we applied to the first quarter infonnation
        the bureaus provided.

       The Department plans to cover reviews of con terence costs under its established OMB required A-
       123 intemal contro l assessment program. Reviewing sample con terence cost data through the A-
       123 assessment aligns the testing of these controls with the testing of all other Departmental
       financial internal controls. Since OMB guidance (Memorandum M-12-12) has expanded the
       definition tor conferences and thus increased the universe of conferences to be reviewed, the
       Department decided to leverage contractor support to more expeditiously review internal controls
       over the FY 20 12 con terence data.

       Since the beginning ofFY 20 12, the Department has continued to enhanc:e its controls around
       conference spending. On October 21, 20 II , the Depa1tment issued conference policy so that all
       bureaus wou ld have one set of written pol icies with wh ich to compl y. The initial policy addressed
       fundi ng, conference planning and spending, travel, and tood, and included a .. Conference Planning
       ChcckJ ist.''


 


FINAL REPORT NO. OIG 13-001-I                                                                                     10
  U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




11200000148


FINAL REPORT NO. OIG 13-001-I                            11
